Concurrent Audit of USAID/Mozambique’s
 Resettlement Grant Distribution Activity


          Report No. 4-656-01-005-P
                July 31, 2001




        PRETORIA, SOUTH AFRICA
U.S. Agency for
International
Development
RIG /Pretoria



July 31, 2001

MEMORANDUM
FOR:              Director USAID/Mozambique, Cynthia F.Rozell

FROM: Regional Inspector General/Pretoria, Joseph Farinella

SUBJECT:             Concurrent Audit of USAID/Mozambique’s Resettlement Grant
                     Distribution Activity, Report No. 4-656-01-005-P


This memorandum is our report on the subject audit. We have received your
comments on the draft report and have included them in their entirety as an
appendix to this report (see Appendix II). This report contains no
recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   2
             To accomplish our audit objective, the Regional Inspector General’s office in
Summary of   Pretoria (RIG/Pretoria) began a concurrent review of USAID/Mozambique’s
Results      Resettlement Grant Distribution activity by accompanying USAID/Mozambique
             and contractor personnel on selected distributions to the field between December
             2000 and April 2001. The primary purpose of these visits was to determine,
             through physical observation, review of documentation and assessment of field
             procedures and controls, whether USAID/Mozambique and the contractor were
             taking the steps necessary to ensure that the resettlement grants were delivered to
             intended recipients in accordance with applicable agreements.

             Our results showed that, for those items tested, USAID/Mozambique and the
             Contractor’s Program Management Unit took the necessary steps to ensure that
             resettlement grants of approximately $9.7 million were delivered to intended
             recipients in accordance with applicable agreements.



             From early February through May 2000, southern Africa experienced the worst
Background   flooding in a century. Hardest hit was Mozambique, one of the ten poorest
             countries in the world. Madagascar and Botswana also suffered serious damage,
             as did several other southern African nations. Along with other donors and host
             governments, the U.S. Government implemented a rapid and comprehensive
             emergency relief effort.

             Closely following the relief effort, rehabilitation and reconstruction activities
             were authorized by the Southern Africa Floods Supplemental Appropriations
             [hereinafter known as the Supplemental], signed on July 13, 2000. This
             Supplemental provided an initial $25 million in assistance for the countries of
             Mozambique, Madagascar and Botswana in Fiscal Year 2000. Of the $25
             million, USAID/Mozambique received $20 million for rural agricultural and
             commercial reactivation, railroad rehabilitation and road reconstruction.
             Subsequently, Congress appropriated an additional $135 million, which the
             President signed into legislation on November 6, 2000. Of these additional
             funds, USAID/Mozambique received $112 million, bringing its total funding to
             $132 million under the Supplemental.

             One of the major activities under USAID/Mozambique’s rural agricultural and
             commercial reactivation was to use the commercial banking sector to provide
             direct assistance to displaced families using host country-owned local currency
             deposited for joint programming. Under this activity, resettlement grants valued
             at approximately $100 were to be provided on a one-time, “helping hand” basis,
             to approximately 85,000 eligible families in five of the most flood-affected
             provinces of the country: Manica, Gaza, Inhambane, Sofala, and Maputo. The
             total amount initially estimated to be disbursed was $8.5 million. On April 20,


                                                                                                 3
                   2001, this activity was expanded to cover an estimated 106,797 recipient
                   families, and the amount programmed was increased to $10 million.



                  In September 2000, RIG/Pretoria developed an audit approach in consultation
Audit Objective   with USAID/Mozambique and the Africa Bureau, whereby these supplemental
                  funds and activities would be audited through a combination of financial and
                  performance audits (some concurrently as activities were being carried out) to
                  ensure careful stewardship of U.S. Government-funded resources. This
                  concurrent performance audit is the first for one of these activities and was
                  designed to answer the following question:

                    Did USAID/Mozambique and the Contractor’s Program Management Unit
                    take the steps necessary to ensure that the resettlement grants were delivered
                    to intended recipients in accordance with applicable agreements?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.



                  Did USAID/Mozambique and the Contractor’s Program Management Unit
Audit Findings    take the steps necessary to ensure that the resettlement grants were
                  delivered to intended recipients in accordance with applicable agreements?

                  For those items tested, USAID/Mozambique and the Contractor’s Program
                  Management Unit took the necessary steps to ensure that resettlement grants
                  totaling approximately $9.7 million were delivered to intended recipients in
                  accordance with applicable agreements.

                  The Mission’s Emergency Reconstruction initiative, the Agriculture and
                  Commercial Trade Program, called for the establishment of a Program
                  Management Unit (PMU) to oversee the management and implementation of the
                  resettlement grant distribution program. In addition, the PMU was to manage an
                  inventory credit program, a rural enterprise loan activity and a microfinance re-
                  capitalization grant activity.

                  In August 2000, the Mission awarded a $2.6 million Cost-Plus-Fixed-Fee
                  contract to a U.S.-affiliated accounting firm to establish the PMU. Funding for
                  the PMU was subsequently increased to $2.9 million on April 30, 2001 to cover
                  expanded program activities through the period of performance (September
                  2002).

                  The major challenge of the resettlement grant activity was to distribute about $10
                  million in cash grants of approximately $100 each to an estimated 106,797



                                                                                                      4
recipient families in an orderly and efficient manner, using verifiable eligibility
criteria, while providing a reasonable level of assurance that grants were tendered
only to intended recipients. In other words, the design and implementation of the
program was to provide reasonable assurance that the money went only to those
recipients whose lives and livelihoods were negatively impacted by the natural
disasters of February-May 2000. To accomplish the above, the PMU was tasked
to perform the following under the auspices of the Program Committee, which
was comprised of representatives from USAID and the Government of
Mozambique:

1. Establish the requirements for the verification of recipient lists and
   obtain approval from the Program Committee for the procedures used.

   Our review of documentation at the Mission showed that on December 7,
   2000, the PMU obtained approval (Implementation Letter No. 20) of the
   eligibility criteria for the resettlement grants from the Program Committee in
   accordance with the contract. These criteria were developed after extensive
   consultation in the field among flood-affected households and in conjunction
   with local and central government officials, including the Ministry of Industry
   and Commerce and the Ministry of Women and Social Affairs. Primary
   criteria included households, which were:

   •   located in one of the districts affected by floods and/or cyclones in the
       beginning of year 2000; and

   •   physically displaced from its residential structure for a minimum period
       of one month and the:

       (a) residence was destroyed or significantly damaged;
       (b) personal belongings, including animals, were lost;
       (c) crops were lost or damaged;
       (d) household was unable to produce a second harvest in calendar year
            2000; and
       (e) household was dependent on food assistance for some period of time.

   The PMU began the registration of potential recipients and the verification
   of lists in August 2000. According to information provided by
   USAID/Mozambique, in compiling the recipient lists, teams utilized
   information in the field, including census data, records kept by local
   administration, private voluntary and other relief organizations, and village
   authorities. Approximately 219,000 flood-affected households were
   registered. Upon a stricter application of the criteria, i.e., damage to house
   and crops and other source of livelihood, the number was reduced to
   109,000 eligible beneficiaries.




                                                                                   5
   Following a review of the application of these criteria and lessons learned
   during the pilot phase of the program, the PMU with approval from the
   Program Committee formally revised some of the criteria (Project
   Implementation Letter No. 34) on February 21, 2001.

2. Compile a computerized list that identifies by province, district and
   village, families for cash distribution.

   Using the criteria developed in item number one above, the PMU complied
   with the requirement to compile a computerized list, as shown by the
   Mission’s files. Subsequently, these lists were expanded because, according
   to USAID/Mozambique, during the design phase of the Resettlement Grant
   Distribution Activity, the figure of 85,000 eligible families was the best
   estimate available. Once the field teams began preparing lists, they found
   that the existing lists from the Government of Mozambique and various
   non-governmental organizations were limited to the geographic areas to
   which the Government and the organizations had access. However, there
   were significant areas that had not even been canvassed during the design
   phase because of poor accessibility.

   The PMU also developed a detailed Implementation Plan, which was
   approved by the Program Committee on December 7, 2000 (Project
   Implementation Letter No. 21). This plan provided details by province,
   district, and village for the distribution of grants to eligible households in the
   flood-affected districts of Manica and Sofala provinces. During our visits to
   the remaining provinces of Inhambane, Gaza and Maputo, we noticed that
   implementation plans were also used.

3. Supervise the implementation of the grant distribution system. Also, in
   coordination with Banco Comercial E. De Investimentos, Sarl (BCI), the
   PMU was to develop a detailed distribution system, including all
   necessary security requirements and schedules for the affected
   population.

   For those items tested, we verified that the PMU complied with the terms
   of the agreement. For example, we observed that the distribution process
   during all of our visits generally proceeded in a very orderly manner with
   staff following prescribed procedures and controls in place to offer
   reasonable security. Specifically, we observed the following at the
   distribution sites:

   •   Distribution Area. The perimeter at the distribution areas was
       cordoned off to limit access into the area with adequate space provided
       within to allow recipients to move freely between the check and bank
       tables before exiting without much congestion.




                                                                                        6
    Recipients queued outside the cordoned off distribution area while others enter under the
    supervision of the PMU Coordinator at the distribution site in Gaza Province, March 2001
    (Photograph by RIG/Pretoria auditor)


•   Security Staff were posted in appropriate areas and directed recipients
    to proper queues, keeping unauthorized people out of the distribution
    area.




    Security assisting in keeping the distribution orderly in Gaza Province, March 2001
    (Photograph by RIG/Pretoria auditor)

•   Callers ensured that recipients were lined up in queues in the same
    order that their names appeared on the distribution list and confirmed
    each person’s identity before issuing an identification slip with the
    person’s assigned number on it. The village chiefs assisted by
    organizing their people in queues beforehand so that most of the
    recipients were already in proper order by the time the caller went



                                                                                           7
through the queue. In addition, village elders were there to verify the
identity of individual recipients and assist in resolving any disputes.
Callers regulated the flow of recipients into the distribution area to
prevent too much congestion while also avoiding idleness.




Caller verifying the identity of recipients at the distribution site in Maputo Province, April 2001
(Photograph by RIG/Pretoria auditor)


Check Table. The PMU staff: (1) verified people’s identities by asking
recipients to state their full name and then checked the name against the
name on the distribution list which also had to correspond to the
number on the person’s identification slip; (2) annotated the person’s
name onto the check and the identification slip number on the back of
the check; (3) annotated the check number onto the distribution list
upon issuance; (4) made sure recipients (and the husband) dipped their
finger in the indelible ink; and (5) referred any questionable cases (e.g.,
with identification) or potential problems to the site supervisor.

In resolving any problems or disputes that arose during the distribution,
the PMU site supervisor consulted with bank and PMU personnel, as
appropriate, and also involved the village elders.




                                                                                                      8
    Recipient, approved for a resettlement grant in Manica Province, dips her finger in red
    indelible ink to minimize the possibility of duplicate payment, December 2000
    (Photo by USAID/Mozambique personnel)

•   Bank Table. The bank staff: (1) verified people’s identities again by
    asking recipients to state their full name and checking their name
    against the name on the distribution list corresponding to the number on
    the person’s identification slip; (2) annotated the check number onto the
    bank’s copy of the distribution list; (3) stamped the checks “Paid”; and
    (4) placed identification slip in a plastic bag to minimize the chance of
    any being picked up later off the ground.




    Recipient receiving 1.5 million meticais at the distribution site in Inhambane Province,
    February 2001 (Photo by RIG/Pretoria auditor)




                                                                                               9
•   Color Coding. The identification slips were color coded and dated as
    an added control measure with colored sheets of paper strung up near
    the entrance and posted on the tables to direct recipients through the
    distribution area.




    Recipient receiving color-coded identification slip from caller at the distribution site in Gaza
    Province, March 2001 (Photo by RIG/Pretoria auditor)

•   USAID Emblem. A large banner with the USAID emblem was
    displayed during each distribution; in addition, USAID sticker labels
    were also affixed to the money packets.




    The banner showing that the USAID-funded activity is ongoing at this distribution site
    in Manica, January 2001 (Photo by RIG/Pretoria auditor)




                                                                                                       10
•   Money: on a test basis, we checked that each packet contained 1.5
    million Mozambican Meticais.




    RIG/Pretoria auditor holds a sample money packet containing 1.5 million meticais, or about
    $91. (Photo taken by Mission personnel, Gaza Province, March 2001)


•   Post Distribution Reconciliation. The staff from each of the three
    posts (caller, check table, bank table) were involved in this process,
    reconciling the results and ascertaining the actual number of payments
    made based on the tick marks they indicated earlier on their respective
    copy of the distribution list.




    Distribution team conducting post distribution reconciliation at the site in Maputo
    Province, April 2001 (Photo by RIG/Pretoria auditor)


•   Security. The level of security coverage over the cash and checks from
    the time they were in transit to the time they were delivered to the
    distribution sites was appropriate. To prevent ambush, cash was
    generally transported unannounced daily to each distribution site. For
    remote areas, two helicopters were used: one to transport the cash and



                                                                                                 11
personnel and the other to fly escort and ferry additional personnel. For
those distributions relatively close to urban areas with a bank, cash was
transported by land with the use of 4-wheel drive vehicles and armed
security personnel. In all cases, the PMU distribution team traveled in
advance by 4-wheel drive vehicles to set up the base camp and the
distribution site.




Helicopter transporting cash photographed from the escort helicopter on the way to the
distribution site in Sofala Province, April 2001 (Photograph by RIG/Pretoria auditor)




Cash being transported from the bank to the distribution site about 20 kilometers outside the
town of Chibuto in Gaza Province, March 2001 (Photograph by RIG/Pretoria auditor)




                                                                                          12
At the pilot distributions, we noted that some of the above items were not being
followed (such as displaying the USAID emblem), but these items were
promptly corrected by the PMU team when we pointed them out. None of
these exceptions were considered material instances of noncompliance.

According to PMU officials and results reported by them, in 94 operational
days, the PMU distributed $9.71 million (159.4 billion Mozambican meticais)
to 106,280 flood victims from 768 villages in some of the most remote and
inaccessible rural areas of Mozambique. During this three-month operational
period, the PMU moved 159.4 billion meticais in cash, weighing about 5.6
tons, to about 188 distribution points in 5 provinces—using helicopters, 4-
wheel drive vehicles, an armored car, a train, boats, canoes, bicycles and
motorcycles. On average, the PMU conducted two distributions a day to about
1,130 people. Distributions totaled, on an average, about $103,2872 per day.
This project involved many different organizations, which provided
management, distribution, banking, logistics, planning, security and
transportation for the operations.




Recipients at the distribution site in Sofala Province organized by the PMU team and waiting for the
delivery of cash from one of the hovering helicopters, April 2001 (Photograph by RIG/Pretoria auditor)




1
  Exchange rate used was 16,420 Mozambican meticais = $1.00. The distribution to each
recipient was 1.5 million meticais, or approximately $91.
2
    $9.709 million divided by 94 days = $103, 287



                                                                                                     13
Last recipient (number 106280) to receive resettlement grant in Maputo Province with members of the PMU
distribution and security teams, April 2001 (Photograph by RIG/Pretoria auditor)

A detailed audit of the total amount distributed, the total number of recipients or
expenses incurred by the contractors was not conducted as part of this concurrent
audit assignment. However, as part of the audit strategy that we developed in
conjunction with the Mission, additional actions are being taken to audit the
expenditures incurred and the results reported for the Resettlement Grant
Distribution Activity. First, the contractor and subcontractors will undergo an
Agency-contracted financial audit, with steps to ensure that funds were used as
intended and to validate the performance results. Under this type of audit, the
Mission contracts for the audit. RIG/Pretoria approves the audit’s scope of work
and audit program, performs periodic on-site monitoring of the field work
performed by the auditors, attends entrance and exit conferences whenever
possible, and approves both the draft and final audit reports.

The Mission will also undertake other actions to ensure the accountability of
funds and validate the effectiveness of program activities. As of April 30, 2001
the management and accounting for the local currency project account will reside
with USAID/Mozambique’s Office of Financial Management. The Mission will
also contract for an impact evaluation of the Resettlement Grant Distribution
Activity.




                                                                                                      14
Management       USAID/Mozambique had no substantive comments to make to the draft audit
Comments and     report, but thanked RIG/Pretoria for the opportunity to respond. The Mission
Our Evaluation   took the opportunity to thank the auditors who worked on the assignment and
                 who accompanied Mission personnel on field trips into some of the most
                 physically demanding flood damaged areas in Mozambique.

                 The Mission stated that it believed the Resettlement Grant Distribution team
                 efforts (including RIG/A/Pretoria) have resulted in one of the most successful,
                 precedent setting activities in the history of U.S. Government and GRM
                 [Government of the Republic of Mozambique] mutual cooperation.




                                                                                                15
                                                                                                           Appendix I



Scope and     Scope
Methodology
              We conducted a concurrent audit of USAID/Mozambique’s Resettlement
              Grant Distribution Activity in accordance with generally accepted government
              auditing standards.

              To accomplish our audit objective, RIG/Pretoria auditors made a total of six
              visits to five provinces in Mozambique between December 2000 and April 2001.
              The purpose of the visits was to determine—through physical observation,
              limited review of documentation, and assessment of field procedures and
              controls—whether USAID/Mozambique and the PMU were taking the steps
              necessary to ensure that the resettlement grants were delivered to intended
              recipients in accordance with applicable agreements.

              We did not conduct a detailed audit of the total amount distributed, the total
              number of recipients, or expenses incurred by the contractors. We identified the
              procedures the PMU used to compile and verify the accuracy of the recipients
              lists, but we did not judge the validity of the data used to create the lists. The
              effect of not performing a detailed audit of these areas had no material effect on
              the information presented in this report. These areas will be audited as part of an
              Agency-contracted audit.

              The results of distributions that RIG/Pretoria attended during this period are
              summarized in the following table:

                                             No. of                               Percent of Eligible     Total Estimated
                               No. of       Actual           No. of Eligible        Beneficiaries          Grants in U.S.
                Province      Villages    Beneficiaries      Beneficiaries        Receiving Grants            Dollars
               Manica               26           2,753                  2,994                    92.0            $251,487
               Gaza                 11           2,691                  2,845                    94.6              245,823
               Inhambane             8           1,249                  1,413                    88.4              114,096
               Sofala               20           4,181                  4,277                    97.8              381,934
               Maputo                9             870                    973                    89.5               79,475
                Total               74          11,744                12,502                     94.0           $1,072,815
              Note: The grant was paid in local currency of 1.5 million Mozambican Meticais, which is about U.S. $91.35


              The 11,744 beneficiaries we observed represented about 11 percent of the total
              106,280 flood victims who received resettlement grants. In terms of villages,
              74 out of the total 768 were represented at the cash distributions we observed.
              And, of the approximately $9.7 million granted, we observed the handling and
              distribution of $1.1 million. Sample selection was determined on the basis of
              staff availability, size and geographical location of the distributions, funds
              involved, and coverage of all five provinces.




                                                                                                                             16
    Methodology

    The objective of this audit was to determine whether USAID/Mozambique and
    the PMU were taking the steps necessary to ensure that the resettlement grants
    were delivered to intended recipients in accordance with applicable
    agreements.

    To accomplish this audit objective, the Regional Inspector General’s office in
    Pretoria (RIG/Pretoria) began a review of USAID/Mozambique’s Resettlement
    Grant Distribution Activity by accompanying PMU and Mission staff on selected
    distributions to the field between December 2000 and April 2001.

.




                                                                                 17
                                                                                                    Appendix II


Management                                              UNITED STATES
Comments                                       AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                       USAID MISSION TO MOZAMBIQUE




             U.S POSTAL ADDRESS                                              RUA FARIA DE SOUSA, 107
             MAPUTO                                                          MAPUTO MOÇAMBIQUE
             DEPARTMENT OF STATE                                             CAIXA POSTAL, 783
             WASHINGTON, D.C. 20521-2330                                     TELEX 6-180 USAID MO
                                                                             TELEPHONE: 490726, 491689, 744484
                                                                             FAX: 492098




                                           MEMORANDUM
             To                            :       Joseph Farinella
                                                   Regional Inspector General for Audit, Pretoria

             From                          :       David Hess
                                                   Acting Mission Director

             Date                          :       July 18, 2001

             Subject                       :       Mission’s Response to the Concurrent Audit of
                                                   USAID/Mozambique’s Resettlement Grant
                                                   Distribution Activity - Report # 4-656-01-XXX-P

             We refer to the draft report on the Concurrent Audits conducted on USAID/Mozambique’s
             Resettlement Distribution Activity, under the Emergency Recovery: Agriculture and
             Commercial Trade Program, received by the Mission on June 28, 2001. The Mission would
             like to take this opportunity of thanking the auditors who worked on this assignment and who
             accompanied Mission personnel on field trips into some of the most physically demanding
             flood damaged areas in Mozambique.

             The Mission has no substantive comments to make with regards to the draft audit report. We
             believe the Resettlement Grant Distribution team efforts (including RIG/A/Pretoria) have
             resulted in one of the most successful, precedent setting activities in the history of U.S.
             Government and GRM mutual cooperation.

             USAID/Mozambique would like to thank RIG/A/P for the opportunity to respond to this draft
             audit report and once again thank the auditors for their support during the field visits to
             distribution sites.


             Thank you.




                                                                                                                 18
